BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in RD Legal
Funding, LLC, RD Legal Funding Partners, LP, RD
Legal Finance, LLC and Roni Dersovitz v. Consumer
Financial Protection Bureau and the People of the State
of New York, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via e-mail and
Next Day service to the following parties listed below,
this 14th day of June, 2021:
Christopher Deal
Kristin Bateman
Consumer Financial Protection Bureau
1700 G Street, NW
Washington, DC 20552
(202) 435-9582
Christopher.deal@cfpb.gov
Counsel for Respondent Consumer Financial
Protection Bureau
Caroline Anais Olsen
Assistant Solicitor General
Andrew W. Amend
Steven Wu
New York State Office of the Attorney General
23rd Floor
28 Liberty Street
New York, NY 10005
(212) 416-6184
Caroline.olsen@ag.ny.gov
Counsel for Respondent of the State of New York

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
I 1300 I Street, NW, Suite 400E
Washington, DC 20005

Anne M. Voigts
Counsel of Record
Michael D. Roth
David K. Willingham
King & Spalding LLP
633 West Fifth Street
Suite 1600
Los Angeles, CA 90071
(213) 443-4355
avoigts@kslaw.com
mroth@kslaw.com
dwillingham@kslaw.com
Jeffrey M. Hammer
Caldwell Hammer LLP
633 West Fifth Street
Suite 1710
Los Angeles, CA 90071
(213) 712-1390
jhammer@caldwellhammer.com

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 14, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

L

kJ/t'f,(J..,I

~

Nbtary Public ._____
[seal]

AMY TRIPLETT MORGAN
Attorney al Law
Nota,y Public. State or Ohio

My Commissron Ha No~ )r.·"tlron
Date S !i: 11 ,. • ; (J:, , ,, (,

